NO:

SUPREME COURT OF THE UNITED STATES

DONALD MACK,
PETITIONER,
v.
ASHLEY MOODY,
ATTORNEY GENERAL, STATE OF FLORIDA
RESPONDENT.
PROOF OF SERVICE
I DO swear or declare that on this date August , 2021 as required by Supreme Court Rule 39 1
have served the enclosed Motion for leave to proceed in Forma Pauperis or the party's counsel, and on
every other person required to be served, by depositing an envelope containing the above documents in
the Uni9ted States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third party commercial carrier for delivery within three (3) calendar days.
The names and addresses of those served are as follows:
The Office of the Attorney General of Florida, 1515 N. Flagler Ave. Dr. Ste 900, West Palm Beach,
Florida.
I declare under penalty of peijury that the forgoing is true and correct
This

PlrtVi.aIA O'jftacfJL

day of August, 2021.

Donald J. Mad^047682

17

